No. 20-96
IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA, PETITIONER
v.
KANE COUNTY, UTAH, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via e-mail and first-class mail, postage
prepaid, this 12th day of November 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,998
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d). I declare under penalty of perjury that the foregoing is true and correct. Executed
on November 12, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 12, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0096
USA
KANE COUNTY, UTAH, ET AL.

STEPHEN H.M. BLOCH
SOUTHERN UTAH WILDERNESS ALL.
425 EAST 100 SOUTH
SALT LAKE CITY, UT 84111
STEVE@SUWA.ORG
CHAD R. DERUM
MANNING CURTIS BRADSHAW & BEDNAR
PLLC.
136 EAST SOUTH TEMPLE
SUITE 1300
SALT LAKE CITY, UT 84111
JEFFREY L. FISHER
STANFORD LAW SCHOOL
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
MELISSA ANN HOLYOAK
UTAH ATTORNEY GENERAL'S OFFICE
160 E 300 S., 5TH FLOOR
SALT LAKE CITY, UT 84114
JESS M. KRANNICH
MANNING CURTIS BRADSHAW & BEDNAR
PLLC
136 EAST SOUTH TEMPLE
SUITE 1300
SALT LAKE CITY, UT 84111
801-363-5678
JKRANNICH@MC2B.COM

ANTHONY L. RAMPTON
UTAH ATTORNEY GENERALS OFFICE
5110 STATE OFFICE BLDG.
PO BOX 142477
SALT LAKE CITY, UT 84114-2477
801-537-9819
ARAMPTON@AGUTAH.GOV
SHAWN T. WELCH
HOLLAND & HART
222 SOUTH MAIN STREET
SUITE 2200
SALT LAKE CITY, UT 84101
801-799-5889
STWELCH@HOLLANDHART.COM

